No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
PETITIONERS
v.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this
13th day of November, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,993
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
November 13, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 13, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218. Thank
you for your consideration of this request.

WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.
DENNIS J. HERRERA
OFFICE OF THE SAN FRANCISCO CITY ATTORNEY
CITY HALL, ROOM 234
1 DR. CARLTON B. GOODLETT PLACE
SAN DIEGO, CA 94102-4682
415-554-4748
CITYATTORNEY@SFGOV.ORG
AILEEN.MCGRATH@SFCITYATTY.ORG
JOSHUA KLEIN
DEPUTY ASSISTANT ATTORNEY
OFFICE OF THE ATTORNEY GENERAL
CALIFORNIA DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVENUE
SUITE 11000
SAN FRANCISCO, CA 94102-7004
415-510-3919
JOSHUA.KLEIN@DOJ.CA.GOV

